n

t

IN THE
V----- L-»
V
SUPREME COURT OF THE UNITED STATES

- -J

Supreme Court, U.S.
FILED

MAY 1 8 2021
STANLEY PRICE,

OFFICE OF THE CLERK

Petitioners^
V.

JUDGE PAULETTE RILE IRONS, Officially and Individually; Pro Tempore DONALD T.
JOHNSON; QUIANA M. HUNT, HUNT-CLARK LAW FIRM, L.L.C.; Officially; SHARON
K. HUNTER; ROBIN M. GIARRUSSO; Officially and Individually; CHRISTOPHER J.
BRUNO, Officially and Individually; OFFICE OF DISCIPLINARY COUNSEL; SUSAN C.
KALMBACH, JUDICIARY COMMISSION OF LOUISIANA, Officially and Individually;
MICHELLE A. BEATY,
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
Case No. 20-30412

PETITION FOR WRIT OF CERTIORARI

Respectfully Submitted
By:
Stanley Price / In Proper Person
2439 Mithra Street
New Orleans, LA. 70122
(504) 236-2299
PRO SE LITIGANTS

1

A

TABLE OF CONTENTS
Page
I. QUESTIONS PRESENTED FOR REVIEW

4

II. PARTIES TO THE PROCEEDINGS

5

III. RELATED PROCEEDINGS

5

IV. TABLE OF AUTHORITIES

6

V. OPINIONS AND DECISIONS BELOW

7

VI. JURISDICTION

10

VII.

STAUTORY PROVISIONS

11

VIII.

INTRODUCTION

12

IX. STATEMENT OF THE CASE

14

Respondents deprived and denied Stanley Price due process and rights to access to
court to redress his grievances
Quiana M. Hunt and Hunt Clark Law Firm, LLC breached contractual agreement to
pay compensation for paralegal services for over four years to Stanley Price.
Stanley Price filed suit challenged the constitutionality of respondents conduct, and
the district court dismissed based on lack of subject-matter jurisdiction and failure to
state a claim.
The Fifth Circuit Court of Appeals Affirmed the decisions of the District Court.
X. REASON FOR GRANTING WRIT

18

I. The Decision Below Conflicts with This Court’s Precedent That “Obvious” and
Constitutional Violations

are Clearly

Respondents.
2

Established and Violated By

A. The Fifth Circuit’s holding that Judicial Respondents are entitled to
absolute and qualified immunity despite their unconstitutional conduct
conflicts with the Court’s precedent.
B. The Fifth Circuit’s holding state officials, state agencies, officers of the
court and private citizens unconstitutional conduct and civil rights
violations were not civilly liable conflicts with its own precedent and this
Court’s precedent.
C. The Fifth Circuit’s holding conflicts with its own and uniformity of other
Circuit Court’s rulings.
II. This Court Should Grant Review to Prevent Federal and State Judges from
infringement of Citizens Secured Liberty and Property Rights Protected by the
United States Constitution and laws.
III. This Court Should Grant Review to Prevent Federal and State Court Judges Fraud
and Fraud on the Court to Prevent Systemic Oppression and Involuntary
Servitude on Stanley Price in Conflict with this Court’s Precedent.
XI. CONCLUSION

27

APPENDIX A

Opinion of the Fifth Circuit of January 7, 2021

28

APPENDIX B

Mandate of Fifth Circuit of January 29, 2021

28

APPENDIX C

Judgment of the District Court January 8, 2020

28

APPENDIX D

Recusal of Judge Greg G. Guidry

3

.28

I.
QUESTIONS PRESENTED
1. Whether a Federal Judge has power of authority or discretion to act contrary the United
States Constitution?
2. Whether judicial officials and private citizens can be sued for violating a citizens
constitutional and civil rights?
The Fifth Circuit Court of Appeals affirmation of United States District Court Eastern
District of Louisiana dismissal of federal claims pursuant to FRCP Rule 12(b)(1) and (6)
violated procedural and substantive due process of U.S. Constitution 5th Amendment?
3. Whether Judicial officials, state agencies, and state officials can be held individually
liable for infringing Stanley Price’s liberty and property right and interest secured and
protected under U.S. Constitution 14th Amendment and 42 U.S.C. § 1983?
4. Whether a Judge conducting a bench trial in lieu of a demand for trial by jury contravenes
U.S. Constitution 7th Amendment and FRCP Rule 38?
5. Whether the United States District Court Eastern District of Louisiana and Fifth Circuit
Court of Appeals violated appellant’s U.S. Constitution 13th Amendment depriving and
denying compensation for rendered services under a contractual relationship with a
private entity constituted involuntary servitude?
6. Whether the Fifth Circuit Court of Appeals and United States District Court Eastern
District of Louisiana deprived and denied appellant’s fundamental right under the 5th and
14th Amendments to defend against false criminal accusations?
7. Whether Article III § 2 clause 1 of the United States Constitution confer a right upon
citizens of the United States to institute Defamation claims for adjudication?
4

8. Whether the trial court judge should have been disqualified pursuant to 28 U.S.C. §§ 144,
453 and 455 for failure to uphold the Constitution and laws of the United States?
9. Whether the Judgment rendered in violation of U.S. Constitution constitutes a void?
II.
PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.
III.
LIST OF ALL RELATED CASES
1. United States Fifth Circuit Court of Appeals, Stanley Price v. Paulette Riley Irons, et al,
case no. 20-30412.
2. United States District Court Eastern District of Louisiana, Stanley Price v. Paulette Riley
Irons, etal, case no. 2:19-cv-11451.
3. Civil District Court for the Parish of Orleans, Stanley Price v. Quiana M. Hunt, et al,
Docket No. 2018-02949.
4. Civil District Court for the Parish of Orleans, Stanley Price v. Quiana M. Hunt, et al,
Docket No. 2019-3537.

5

IV.
TABLE OF AUTHORITIES
Case Authorities

Page

1. Anderson v. Creighton, 483 U.S. 635, 645 (1987)

19

2. Burks v. Lasker, 99 S. Ct. 1831, 441 U.S. 471, 60 L. Ed.2d 404

.22

3. Bonner v. Circuit Court of St. Louisiana, 526 F.2d 1331, 1334 (8th Cir. 1975)
4. Cooper v. Aaron, 358 U.S. 1,78 S. Ct. 1401 (1958)

23

5. Cruz v. Beto, 405 U.S. 319, 322, 92 S. Ct. 1079,1081,31 L. Ed. 2d 263 (1972)...22
6. Diamond v. Chakrabarty, 100 S. Ct. 2204, 447 U.S. 303, 65 L. Ed.2d 144
7. Earle v. McVeigh, 91 U.S. 503, 23 L. Ed. 398

,..24
26

8. Freytag v. C.I.R., 111 S. Ct. 2631, 501 U.S. 868,115 L. Ed.2d 764

25

9. Hafer v. Melo, 502 U.S. 21 (1991)

19

10. Haines v. Kemer, 404 U.S. 519, 520-21, 92 S. Ct. 594, 596, 30 L. Ed. 2d 652 (1972).22
11. Howlett v. Rose, 496 U.S. 356, (1990)

18

12. In re: Murchinson, 349 U.S. 133,136, 75 S. Ct. 623, 99 L. Ed.2d 942 (1955)

21

13. Jordan v. Gilligan, 500 F.2D 701, 710 (6th Cir. 1974)....................................

.26

14. Lubben v. Selective Service System Local Bd. No.27, 453 F.2d 645 (1st Cir. 1972)..26
15. Marshall v. Jerrico, Inc., 446 U.S. 238 (1980)

20

16. Monell v. Department of Social Services, 465 U.S. 658, 98 S. Ct. 2018, 56 L. Ed.2d 611
(1978)

24

17. Monroe v. Pape, 365 U.S. 167, 81 S. Ct. 473, 51 L. Ed.2d 492 (1961)

24

18. Moore v. Chesapeake & O. Ry. Co., 54 S. Ct. 402, 291 U.S. 205, 78 L. Ed. 755...'22
19. Neitzke v. Williams, 109 S. Ct. 1827, 490 U.S. 319,104 L. Ed. 2d 338
6

.23

20. Norton v. Shelby County, 118 U.S. 425, 442 (1886)

19

21. Offutt v. United States, 348 U.S. 11,14

24

22. Owen v. City of Independence, 455 U.S. 622, 651 (1980)

19

23. Pierson v. Ray, 386 U.S. 547, 87 S. Ct. 1213,18 L. Ed.2d 288 (1967)

.25

24. Radovich v. National Football League, 77 S. Ct 390, 352 U.S. 455, 1 L. Ed. 2d 456,25
rehearing denied 77 S. Ct. 716, 353 U.S. 931,1 L. Ed.2d 724

22

25. Renaud v. Abbott, 116 U.S. 277,29 L. Ed. 629, 6 S. Ct. 1194

.26

26. Standard v. Olesen, 74 S. Ct. 768, 98 L. Ed. 1151

24

27. U.S. v. Will, 449 U.S. 200, 101 S. Ct. 471, 66 L. Ed.2d 392, 406 (1980)

.23

28. West v. Atkins, 108 S. Ct. 2250, 487 U.S. 42, 101 L. Ed.2d 40

.25

29. White v. Bloom, 621 F.2d 276

22

30. Williams v. Metzler, 132 F.3d 937

25

31. Williams v. Pennsylvania, 136 S. Ct. 1899,1905-06 (2016)

.20

32. Withrow v. Larkin, 421 U.S. 35 (1975)

.20

CONSTITUTION AND STATUTES
United States Constitution Article III § 2 Clause 1

10

U.S. Constitution 1st Amendment

11

U.S. Constitution 5th Amendment

11,20

U.S. Constitution 7th Amendment

11,21

U.S. Constitution 13th Amendment

11,21

U.S. Constitution 14th Amendment

11

La. Const. Art. I § § 2 and 22

11,12,19, 20, 23
20

La. Const. Art. XII § 10
7

28 U.S.C. § 144

26

28 U.S.C. §453

26

28 U.S.C. § 455

16, 26

28 U.S.C. § 1254

10

28 U.S.C. § 1331

10, 24

28 U.S.C. § 1343

10, 24

28 U.S.C. § 1654

13

42 U.S.C. § 1983

18,19,24

La. C.C.art. 1908

13

La. Rev. Stat: 13:5101

20
RULES
22

FRCP Rule 8(a)
FRCP Rule 12(b)(1) and (b)(6)

9,12,16

FRCP Rule 38

21

FRCP Rule 60(b)

20

8

V.
DECISIONS BELOW
1. On the United States District Court Eastern District of Louisiana, case no. 2:19-cv-11451,
granted FRCP Rule 12(b)(1) lack of subject-matter jurisdiction and 12(b)(6) failure to
state a claim for which relief may be granted in favor of defendants dismissing all
plaintiff federal claims in defendants in their individual capacities with prejudice and
state court claims against defendants in their official without prejudice.
2. The United States Court of Appeals for the Fifth Circuit affirmed the judgment of the
United States District Court and issued an order as the mandate.
3. The Clerk of Court for the Fifth Circuit Court of Appeals instructed Stanley Price to
obtain the disposition of opposing counsel to determine filing of Reply Brief, upon
conferring with opposition counsel authorized by state lawyers and objected by private
defendant attorney, who failed to file an appellee’s brief, objected and Clerk Mary
Stewart denied filing of the reply brief. The Court issued a mandate.
4.

Case no. 2018-02949 in the Civil District Court for the Parish of Orleans is pending.
While in case 2019-3537 no citation or petition were issued and Judge Paulette Riley
Irons issued an en banc order recusing all judges from hearing and deciding this case.

9

VI.
STATEMENT OF JURISDICTION
The United States Supreme Court has jurisdictional authority to judicially review this
case pursuant to 28 U.S.C. § 1254. The United States Fifth Circuit Court of Appeals had
jurisdiction pursuant to 28 U.S.C. § 1291, and United States District Court Eastern District of
Louisiana had jurisdictional authority to hear and decide this case pursuant to U.S. Constitution
Article III § 2 Clause land 28 U.S.C. §§ 1331, 1343.

10

VII.
PERTINENT CONSITUTIONAL PROVISION
The pertinent provisions of the United States Constitution relative to this civil action is
prescribed in (1) U.S. Constitution First Amendment which states, Congress shall make no law
abridging the freedom of Speech and to petition the Government for a redress of grievances; (2)
U.S. Constitution Fifth Amendment states, No person shall be deprived of life, liberty or
property, without due process of law; (3) U.S. Constitution Seventh Amendment, In Suits at
common law, where the value in controversy shall exceed twenty dollars, the right of trial by
jury shall be preserved, and no fact tried by a jury, shall be otherwise re-examined in any Court
of the United States, than according to the rules of the common law; (4) U.S. Constitution Ninth
Amendment, the enumeration in the Constitution, of certain rights, shall not be construed to deny
or disparage others retained by the people; (5) U.S. Constitution Thirteenth Amendment, Neither
slavery nor involuntary servitude, except as a punishment for crime whereof the party shall have
been duly convicted, shall exist within the United States, or any place subject to their
jurisdiction; (6) U.S. Constitution Fourteenth Amendment, All persons bom or naturalized in the
United States, and subject to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside.
(7) La. Const. Art. I § 2, No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws; (8) La. Const. Art. I § 3, No person shall be denied
the equal protection of the laws. No law shall arbitrarily, capriciously, or unreasonably
discriminate against a person because of birth, age, sex, culture, physical condition, or political
11

ideas or affiliations. Slavery and Involuntary servitude are prohibited, except in the latter case
as punishment for crime. (9) La. Const. Art. I § 5, Every person shall be secure in his person,
property, communications, houses, papers, and effects against unreasonable searches and
seizures, or invasions of privacy; (10) La. Const. Art. I § 22, All courts shall be open, and every
person shall have an adequate remedy by due process of law and justice, administered without
denial, partiality, or unreasonable delay for injury to him in his person, property, reputation, or
other rights.
Applicant avers that the enumerated provisions articulated in the aforementioned
paragraph are pertinent to the case being submitted for certiorari.

VIII.
INTRODUCTION
The United States Court of Appeals for the Fifth Circuit, United States District Court for
the Eastern District of Louisiana, and Civil District Court for the Parish of Orleans have failed
and refuses to conform to the United States and Louisiana Constitution and statutory and civil
laws. Through interdependence federal judges have commissioned and sanctioned state court
judges to infringe the secured and protected right of Stanley Price and deprived and denied his
right to access the courts to redress his grievances.
Notwithstanding constitutional and statutory jurisdiction of the United States District
Court to hear and decide this case, it issued a judicial determination pursuant to FRCP Rule 12
(b)(1) lack of subject-matter jurisdiction simultaneously FRCP Rule 12(b)(6) motions filed by
defendants for failure to state a claim for which relief may be granted. Interestingly, district court
dismissed state court judges, state agencies, state employees, private entities and private
12

individual defendants in their individual capacities with prejudice, and in their official capacities
without prejudice. The U.S. Court of Appeals for the Fifth Circuit affirmed such practices.
The two procedural principles are distinctively opposite to each other. This civil action
ensued from an en banc order issued by Judge Paulette Riley Irons in the Civil District Court for
the Parish of Orleans, appointment of Pro Tempore Judge Donald Johnson, and failure and
refusal to issue summons on defendants that deprived and denied Stanley Price constitutional
right to access to court. The process was duplicated and reinforced by Judge Susan S. Vance of
the United States District Court for the Eastern District of Louisiana. The ruling of the courts
failed to provide legal protection to Stanley Price, and subjected him to “Involuntary
Servitude” by federal and state court judges. The federal and appellate courts granted state court
judges absolute and qualified immunity despite obvious and clear violation of the United States
and Louisiana constitution. The judiciary has failed to act impartial and fair as required by law.
Pursuant to 28 U.S.C. § 1654, Petitioner Stanley Price is proceeding before the U.S.
Supreme Court on writ of certiorari in the capacity of pro se, as he litigated in the appellate and
district court proceedings informa pauper. 28 U.S.C. § 1915 (a).
This case or controversy ensues from a contractual relationship entered and verbalized
between Stanley Price (Paralegal) and Quiana M. Hunt attorney and proprietor of Hunt-Clark
Law Firm, L.L.C. in September 2014, to perform paralegal services on behalf of the limited
liability company. La. C.C. art. 1908.
I performed paralegal services from November 2014 thru February 2018. The company
over a 4 and Vz years generated revenues over $2,000,000.00 dollars. On January 9, 2017,
Quiana M. Hunt received a settlement in the amount of $6,000,000.00 in which Hunt-Clark
received $2,000,000.00 and shared fees with Chehardy, Sherman, Williams, Murray, Recile and
IB

Stakelum, equally or $1,000,000.00 dollars. Quiana M. Hunt compensated Stanley Price in the
amount of $14,000.00 and promised to pay the remaining amount due to him but failed to do so.
Only a partial compensation has been paid by Quiana M. Hunt on behalf of the law firm.
Hunt-Clark Law Firm, L.L.C. has failed and refuses to provide Stanley Price with 1099Miscellaneous Income forms from 2014 to the present date. Quiana M. Hunt has created tax
problems for Stanley Price as a result of her intentional negligence and breach of duty and
obligation pertinent to the contract agreement. La. C.C. art. 2315.
During commencement of the relationship Price and Hunt agreed to market and expand
the business financial position due to its insolvency and to pay compensation on contingency of
settlement or judgment of cases being handled by the company.
The Civil District Court for the Parish of Orleans, United States District Court for the
Eastern District of Louisiana and United States Court of Appeals for the Fifth Circuit have all
failed and refuses to protect the rights and interest of Stanley Price as mandated under Louisiana
and United States Constitution, state and federal statutes or any rules of law.

IX.
STATEMENT OF THE CASE
A Petition for Damages and Request for Trial by Jury was filed in the Civil District Court
Parish of Orleans, CDC, Stanley Price v. Quiana M. Hunt and Hunt-Clark Law Firm, LLC, No.
2018-02949. During the course of the proceedings Judge Robin M. Giarrusso, Presiding over the
case, during pretrial scheduling conducted an ex parte meeting with attorney Sharon Kaye Hunt,
counsel for defendants, and changed the jury trial to a bench trial.

14

• Preliminary Injunction hearing was held regarding cellular phone number owned by
Stanley Price, and Judge Giarrusso sanctioned Quiana M. Hunt illegal reporting to TMobile that her phone was stolen and denied injunction.
• Stanley Price filed a motion to compel discovery of income tax information and forms
denied by Judge Giarrusso predicated on her opinion that plaintiff was fishing for
information irrelevant and not discoverable.
• Judge Robin Giarrusso authorized Quiana M. Hunt to withhold my tax records on the
basis Quiana M. Hunt had not filed tax returns on behalf of Hunt-Clark Law Firm, LLC
in over four years.
• Stanley Price ascertained that, Quiana M. Hunt, after several complaints filed by former
clients to Office of Disciplinary Counsel, falsely accused Stanley of committing criminal
acts and improperly influenced Deputy Counsel Susan C. Kalmbach to investigate into
the association of Stanley Price.
• Stanley Price reported activities of Judge Robing M. Giarrusso to Louisiana Judiciary
Commission, who refused to open investigation of alleged judicial misconduct.
A second civil action was filed in state court, CDC, Stanley Price vs. Quiana M. Hunt, Judge
Robin M. Giarrusso, Susan C. Kalmbach, Office of Disciplinary Counsel, Louisiana
Judiciary Commission, Michell A. Beaty special counsel for Louisiana Judiciary
Commission, No. 2019-3537.
•

Chief Judge Paulette Riley Irons intervened and ordered the clerk office to withhold
issuance of citation on defendants.

•

Chief Judge Paulette Riley Irons issued an order en banc recusal of all judicial
officials in service in the Civil District Court Parish of Orleans.
15

•

Chief Judge Paulette Riley Irons conducted an ex parte meeting with Pro Tempore
Judge Donald Johnson to preside over the civil action.

•

Chief Judge Paulette Riley Irons filed a motion for appointment of Donald Johnson
to act pro tempore approved or granted by former justice of Louisiana Supreme
Court Greg G. Guidry.

•

Notwithstanding, non-service of citation on defendants, Louisiana Office of Attorney
General assigned attorney David G. Sanders to enroll and file Peremptory Exception
of No Cause of Action on behalf of Judge Robin M. Giarrusso and Christopher J.
Bruno.

•

Stanley Price was deprived and denied constitutional protected right to access to
court to redress his grievances.

•

The CDC cases are pending.

A Petition for Damages was filed in the United States District Court for the Eastern
District of Louisiana, Stanley Price vs. Paulette Riley Irons, Officially and Individually,
etal.,No. 2:19-cv-011451.
•

The case was assigned and allotted to Judge Greg G. Guidry.

•

On October 7, 2019, Judge Greg G. Guidry recused in accordance with 28 U.S.C.
§ 455(a), Rec. Doc. 10.

•

Upon reassignment, Judge Sarah S. Vance inherited the duty of adjudication of
the civil action.

•

On June 8, 2020, Judge Sarah S. Vance issued judgment in favor of defendant
FRCP Rule 12(b)(1) and (b)(6) motions for a lack of subject matter jurisdiction

16

and failure to state a claim for which relief may be granted. Rec. Docs. 58, 59, 64,
66, 67 and 68.
•

Judge Vance dismissed defendants in their individual capacities with prejudice,
and officially without prejudice. Rec. Doc. 71.

•

A timely Notice of Appeal was filed and docketed 20-30412, on the basis of
manifest error and judicial disqualification.

•

On January 7, 2021, United States Fifth Circuit Court of Appeals Affirmed Judge
Sarah S. Vance judgment and appellant’s Motion for Disqualification of Judge
Sarah S. Vance.

•

Stanley Price filed a Petition for Rehearing En Banc on January 13, 2021.

•

Stanley Price was contacted by Deputy Clerk Mary Stewart on January 14, 2021,
instructing to conference with opposing counsel to approval or objection to
rehearing.

•

Appellant Stanley Price received approval from Assistant Attorney General James
Evans, and Objection by attorney Sharon Kaye Hunter, who failed to file an
appellee’s brief on behalf of Quiana M. Hunt and Hunt-Law Firm, LLC.

•

After being instructed to obtain approval or objection, on January 15, 2021, notice
was sent to Stanley Price by Deputy Clerk Whitney M. Jett that the Court had
denied motion for extension of time to file Petition for Rehearing En Banc.

•

Deputy Clerk Mary Stewart sent notice of the judgment issued as the mandate
without court opinion on January 29, 2021.

•

Stanley Price files this writ of certiorari to the United States Supreme Court.

17

X.
REASONS FOR GRANTING WRIT
1.
The United States Supreme Court should grant petitioner writ because Civil District
Court state judiciary, United States District Court and United States Fifth Circuit Court of
Appeals rulings are conflicting with this Court and repugnant to the United States and Louisiana
Constitution, federal and state statutes in departure from the rules of law.
“Federal law & Supreme Court cases apply to state court cases.” Howlett v. Rose, 496
U.S. 356 (1990). Federal and state courts rulings and judgments are defiant to stare decisis.
In modem times, Southern intransigence is being perpetuated by federal and state court
judges to allow citizens rights to be systematically violated and subject to involuntary servitude
abolished under the Constitution of the United States. Cong. Globe, 42nd Cong. 1st Session 375
(1871) (Rep. Lowe). Recognizing that a means of enforcing the constitutional rights guaranteed
by the Fourteenth Amendment was needed, Congress passed “An Act of Enforce the Provisions
of the Fourteenth Amendment to the Constitution of the United States, and for other purposes,
“ch. 22, 17 Stat. 13 (1871), the first section of which is codified as 42 U.S.C. § 1983. To
safeguard fundamental liberties, lawmakers concluded that the nation needed to “throw open the
doors of the United States courts to those whose rights under the Constitution are denied and
impaired.” Cong. Globe, 42nd Cong., 1st Session 376 (1871); id at 501 (because the federal
government cannot “compel proper legislation and its enforcement” in Southern states, “as you
cannot reach the Legislature, the injured party should have an original action in our Federal
courts”). The remedy that Section 1983 provides was therefore “intended not only to provide
compensation to the victims of past abuses, but to serve as a deterrent against future
18

constitutional deprivations.” Owen v. City of Independence, 445 U.S. 622, 651 (1980). For the
sake of justice, this Court should simply reaffirm that when the unlawfulness of an official’s
conduct is “apparent”, courts should not need precedent addressing ’’the very action in question”
to reject claims of qualified immunity. Anderson v. Creighton, 483 U.S. 635, at 640 (1987).
In abuse of power of authority, United States District Court and U.S. Fifth Circuit Court
of Appeals have authorized state court judges to violate guaranteed rights under the Constitution
and Civil Rights Act of 1964, as amended 42 U.S.C. § 1983 of Stanley Price. It is apparent on
the face of the evidence in record of court that such violations occurred without consequences.
2.
Federal and State Judges judgments and rulings circumvented and violated Petitioner’s
fundamental and alienable rights and interests secured and protected in the U.S. Constitution and
Civil Rights Act of 1964, inter alia.
Petitioner was deprived and denied his rights to freedom of speech and petition the court
for redress of grievances in violation of the U.S. Constitution First Amendment/ La. Const. Art. I
§ 22 by federal and state courts.
Hafer v. Melo, 502 U.S. 21 (1991): The Supreme Court ruled that public Officials
(Judges are not exempt) who cause “Unauthorized Deprivations” lose their Eleventh Amendment
Protection and are subject to suit for damages under 42 U.S.C. § 1983. This Case before the US
Court of Appeals is found at 912 F.2d 628. The key is negligence: acting in excess or without
authority or jurisdiction or failing to act when required to do so. Melo v. Hafer, 13 F.3d 736 (3rd
Cir. 1994). Norton v. Shelby County, 118 U.S. 425, 442, “An unconstitutional act is not law; it
confers no rights; it imposes no duties; affords no protection; it creates no office; I is in legal
contemplation, as inoperative as though it had never been passed.”
19

3.
Petitioner was deprived and denied rights to procedural and substantive due process
under the U.S. Constitution Fifth Amendment by the United States District Court affirmed by
United States Fifth Circuit Court of Appeals.
Petitioner was deprived and denied of liberty and property rights and interest in violation
of U.S. Constitution Fourteenth Amendment and La. Const. Art. I § 2 by the United States
District Court and Civil District Court for the Parish of Orleans.
No man is above the law and no man is beneath the protection of the law. A judge is
without jurisdiction to act contrary to the United States Constitution.
La. Const. Art. XII § 10, Suits Against the State. (A) No Immunity in Contract or Tort.
Neither the state, a state agency, nor a political subdivision shall be immune from suit and
liability in contract or for injury to person or property.
La. Rev. Stat: 13:5101, A. This Part shall be known and may be cited as the “Louisiana
Governmental Claims Act”. B. This Part applies to any suit in contract or for injury to person or
property against the state, a state agency, an officer or employee of the state or a state agency
arising out of the discharge of his official duties or within the course and scope of his
employment, or a political subdivision of the state, as defined herein, or against an officer or
employee of a political subdivision arising out of the discharge of his official duties or within the
course and scope of his employment.
Due Process Clause entitles a person to an impartial and disinterred tribunal in both civil
and criminal cases. Marshall v. Jerrico, Inc., 446 U.S. 238 (1980), (citing Withrow v. Larkin,
421 U.S. 35 (1975), Lltkey v. United States, 510 U.S. 540 (1994). At core of this due process

20

jurisprudence is the recognition that self-interest on the part of the judge is incompatible with
due process. Williams v. Pennsylvania, 136 S. Ct. 1899, at 1905-06.
The judgments of the court are subjective opinions reached by arbitrary and capricious
unreasonableness views absence of the required collaboration of principles of law. This case
involves civil and criminal components requiring strict scrutiny and construction intentionally
neglected by federal and state court judiciary. Stanley Price was falsely accused of committing
crimes by attorneys Quiana M. Hunt and Sharon Kaye Hunter but not allowed to confront his
accusers or call witnesses. Offutt v. United States, 348 U.S. 11, 14, Justice “must satisfy the
appearance of justice.” (citing In re Murchinson, 349 U.S. 133, at 136, 75 S. Ct. 623, 99 L.
Ed.2d 942(1955).
4.

Petitioner was deprived and denied right to a trial by jury in violation of the U.S.
Constitution Seventh Amendment by the United States District Court affirmed by the United
States Fifth Circuit Court of Appeals. FRCP Rule 38.
The district court deprived and denied a trial by jury.
5.
Petitioner was deprived and denied of rights to compensation for rendered service to a
private entity in violation of U.S. Constitution Thirteenth Amendment by the United States
District Court affirmed by the United States Fifth Circuit Court of Appeals. (INVOLUNTARY
SERVITUDE). The trial court refused to compel Quiana M. Hunt to compensate Stanley Price.
The Supreme Court specific reasons for granting writ is appropriate for the following:
1. The judgments of the district and appellate courts failed to adhere and conflicts with stare
decisis of the United States Supreme Court.
21

Pursuant to 28 U.S.C. § 1654, proceeded in the capacity of pro se. Because the Plaintiff is pro
se, the Court has a higher standard when faced with a motion to dismiss, White v. Bloom, 621
F.2d 276 makes this point clear and states: A court faced with a motion to dismiss a pro se
complaint must read the complaint’s allegations expansively, Haines v. Kerner, 404 U.S. 519,
520-21. 92 S. Ct. 594, 596, 30 L. Ed.2d 652 (1 972), and take them as true for purposes of
deciding whether they state a claim. Cruz v. Beto, 405 U.S. 319, 322, 92 S. Ct. 1079, 1081, 31
L. Ed. 2d 263 (1972).
Judge Sarah S. Vance granted defendants Rule 12(b)(1) lack of jurisdiction and 12(b)(6)
failure to state a claim for which relief may be granted motions to dismiss. The judgment was
contrary to U.S. Constitution 1st Amendment rights to freedom of speech, access to court and
U.S. Constitution 5th Amendment procedural and substantive due process rights. Petitioner
maintains that the complaint established jurisdiction of the court in accordance with U.S.
Constitution Article III § 2 clause 1 case or controversy, 28 U.S.C. §§§ 1331, 1343 and 1367 to
hear and decide the civil action. According to the requirements of FRCP Rule 8(a) (1), (2), and
(3) the complaint was sufficiently plead. Jurisdiction of federal District Court is determinable by
allegations of complaint. Moore v. Chesapeake & O. Ry. Co., 54 S. Ct. 402, 291 U.S. 205, 78
L. Ed. 755. The test as to sufficiency of a complaint is whether it states a claim which is wholly
frivolous. Radovich v. National Football League, 77 S. Ct 390, 352 U.S. 455, 1 L. Ed.2d 456,
rehearing denied 77 S. Ct. 716, 353 U.S. 931, 1 L. Ed.2d 724. Whether a cause of action exists is
not a question of jurisdiction and, therefore, the existence of a cause of action may be assumed
without being decided. Burks v. Lasker, 99 S. Ct. 1831, 441 U.S. 471, 60 L. Ed.2d 404. Rule
permitting dismissal for failure to state a claim does not countenance dismissal based on judge’s

22

disbelief of complaint’s factual allegations. FRCP Rule 12(b)(6). Neitzke v. Williams, 109 S.
Ct. 1827,490 U.S. 319,104 L. Ed.2d 338.
Judge Sarah S. Vance ruling are repugnant to the Constitution due process, infringed on the
constitutional protected rights of petition, departed from requisite scrutiny and construction of
the law and judicial procedure. The Petitioner maintains that, the complaint sufficiently met the
requisites for alleged causes of action which relief may be granted.
Petitioner contends that the complaint sufficiently states a claim against state Judicial
Officials, private individuals and private entities, and political subdivisions of the State of
Louisiana under color of law. Petitioner asserts that defendants in state court proceedings
violated clearly established right under Louisiana Constitution Article I, Declaration of Rights,
Art. I § 2, Due Process of Law, § 3, Right to Individual Dignity, § 5, Right to Privacy, § § 22
Access to Court.
Judge Sarah S. Vance abrogated her duty to allow a jury to decide the facts of the case and
reached a determination the United States District Court lacked jurisdiction to hear and decide
the controversies. The judgment rendered was unconstitutional and in violation of petitioner’s
rights.
Any judge who does not comply with his oath to the Constitution of the United States wars
against that Constitution and engages in acts in violation of the supreme law of the land. The
judge is engaged in acts of treason. The U.S. Supreme Court has stated that “no state legislator or
executive or judicial officer can war against the Constitution without violating his undertaking to
support it”. Cooper v. Aaron, 358 U.S. 1, 78 S. Ct. 1401 (1958). (citing U.S. v. Will, 449 U.S.
200,216,101 S. Ct. 471,66 L. Ed. 2d 392,406 (1980).

23

2. The judgments of the district and appellate courts are contrary to the uniformity of U.S.
Fifth Circuit Court of Appeals rulings and other appellate courts.
Federal courts are authorized to hear cases brought under section 1983 pursuant to two
statutory provisions: 28 U.S.C. §§ 1331 and 1343. The United States District Court and Fifth
Circuit Court of Appeals affirmation of dismissal of petitioner’s federal claims pursuant to FRCP
Rule 12(b)(1) was in violation of U.S. Constitution and Civil Rights Act of 1964, 42 U.S.C. §
1983. Section 1983 provides:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia, subjects, or cause to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper proceeding for redress.
This Court in the matter of Monroe v. Pape, 365 U.S. 167, 81 S. Ct. 473, 5 L. Ed.2d 492
(1961), and Monell v. Department of Social Services, 465 U.S. 658, 98 S. Ct. 2018, 56 L.
Ed.2d 611 (1978), recognized Congress Original Intent in enacting section 1983. This Court
began accepting an expansive definition of rights, privilege and immunities and held that the act
does cover the actions of state and municipal officials, even if they had no authority under state
statute to act as they did in violating someone’s federal rights. It is for Congress, not the courts,
to write the law. Standard v. Olesen, 74 S. Ct. 768, 98 L. Ed. 1151. Once Congress has spoken
it is the province and duty of the judicial department to say what the law is. Diamond v.
Chakrabarty, 100 S. Ct. 2204, 447 U.S. 303, 65 L. Ed.2d 144. Courts are not at liberty to create

24

statutory exception where Congress has declined to do so. Freytag v. C.I.R., 111 S. Ct. 2631,
501 U.S. 868,115 L. Ed.2d 764.
The United States District Court adopted and acted interdependently with Civil District
Court judicial officials in depriving and denying Petitioner’s rights to sue judges and private
parties in their individual capacities pursuant 42 U.S.C. § 1983, by granting judgment on the
basis of FRCP Rule 12(b)(1). In accordance with FRCP Rule 12(b)(6) the court granted absolute
judicial immunity to state judicial official acting in an administrative function. The two
procedures are distinctive in their roles and contrary to multiple Constitutional provisions
asserted for writ of certiorari. The Fifth Circuit Court of Appeals affirmed in lieu of reversal of
plain error or manifest error.
Judges have been held to absolutely immune from section 1983 actions, as long as they are
performing adjudicative functions. Pierson v. Ray, 386 U.S. 547, 87 S. Ct. 1213, 18 L. Ed.2d
288 (1967). In the case sub-judice for review, issuance of citation and petition on defendants
does not qualify as adjudicative functions. Judges has no jurisdiction over administrative
functions. Defendant in § 1983 suit acts under color of state law when he abuses position given
to him by state. West v. Atkins, 108 S. Ct. 2250, 487 U.S. 42,101 L. Ed.2d 40.
Suit for breach of contract is common law action properly cognizable in courts established
pursuant to Article III of United States Constitution. U.S.C.A. Const. Art. 3, § let seq.
Williams v. Metzler, 132 F.3d 937.
Judge Sarah S. Vance without jurisdiction granted absolute judicial immunity to state court
Chief Judge Paulette Riley Irons and others, in deprivation of statutory rights of Petitioner, and
outside scope of protection under controlling principles.

25

Certiorari is warranted as a matter of law, due to treason, bias and prejudice, violation of oath
of office and partiality of adjudicatory functions in violation of U.S. Constitution and laws. 28
U.S.C. §§ 144, 453 and 455.
3. The Judgment was procured by Judicial and Lawyer Fraud and Fraud on the Court and
therefore Void. FRCP Rule 60(b)(4).
A judgment may not be rendered in violation of constitutional protections. The validity of a
judgment may be affected by a failure to give the constitutionally required due process notice
and opportunity to be heard. Earle v. McVeigh, 91 U.S. 503, 23 L. Ed 398. Every person is
entitled to an opportunity to be heard in a court of law upon every question involving his
rights and interests, before he is affected by any judicial decision on the question. Id.
The limitations inherent in the requirement of due process and equal protection of the law
extend to judicial as well as political branches of government, so that a judgment may not be
rendered in violation of those constitutional limitations and guarantees. Renaud v. Abbott,
116 U.S. 277, 29 L. Ed. 629, 6 S. Ct. 1194. “If a court grants relief, which under the
circumstances it hasn’t any authority to grant, its judgment is to that extent void.” “A void
judgment is no judgment at all and is without legal effect.” Jordan v. Gilligan, 500 F.2d
701, 710 (6th Cir. 1974) “a court must vacate any judgment entered in excess of its
jurisdiction.” Lubben v. Selective Service System Local Bd. No. 27, 453 F.2d 645 (1st Cir.
1972).
The United States District Court Eastern District of Louisiana exceeded its limitation
inherent authority granting Rule 12(b)(1) motion to dismiss for lack of jurisdiction, and the
Fifth Circuit Court of Appeals was required to vacate the judgment in lieu of affirming the
judgment.
26

XL
CONCLUSION
For the reasons articulated and argued, to enforce the protection of liberty and property
right and interest secured in the Constitution, prevent unconstitutional and unlawful judgments,
enjoin federal and state court judges abuse of power of limited and restricted authority, it is
prudent and warranted that the United States Supreme Court should grant Petitioner Stanley
Price’s Writ of Certiorari.
Respectfully Submitted
By:

if j?-.

Stanley Price 7 In Proper Person
2439 Mithra Street
New Orleans, Louisiana 70122
Tel. ph. (504) 236-2299

27

XII.
APPENDICIES
1. October 7, 2019, Order of Recusal of himself of United States District Court Judge Greg
Gerard Guidry. Rec. doc. 10.
2. Judge Sarah S. Vance judgment rendered on June 8,2020. Rec. doc. 71.
3. January 7, 2021, United States Court of Appeals for the Fifth Circuit Affirmation of
Judgment.
4. January 29, 2021, Mandate of United States Court of Appels for the Fifth Circuit.

28

